No.
In the Supreme Court of the United States

CLARENCE J. SIMON, JR.,
Petitioner,
VERSUS
DIRECTOR, OFFICE OF WORKERS' COMPENSATION PROGRAMS,
UNITED STATES DEPARTMENT OF LABOR, LONGNECKER PROPERTIES,
INCORPORATED, AND SEABRIGHT INSURANCE COMPANY,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I have this day emailed a copy of the Application for Writ of Certiorari,
Appendix, Certificate of compliance, and this Certificate of Service to Longnecker Properties and
Seabright Insurance Company through its attorney, Henry LeBas, LeBas Law Office 2 Flagg Pl.
#1, Lafayette, LA 70508
Executed on January 19, 2021.

Louis R. Koerner, Jr.
KOERNER LAW FIRM
1204 Jackson Avenue
New Orleans, Louisiana 70130

